ES, IG-99-056, NASA Noncompetitive Procurements
NASA NONCOMPETITIVE PROCUREMENTS
IG-99-056
Executive Summary
Background
NASA obligated significant funds in fiscal year (FY) 1998 to noncompetitive
new awards and to modifications of noncompetitive awards made in FY 1998 and
prior years.  NASA's FY 1998 procurement obligations totaled more than $12.5
billion, of which about $9.7 billion was available for competition.  Of the
$9.7 billion, NASA obligated more than $4.4 billion (45 percent) for
noncompetitive procurement actions.  NASA prepares a Justification for
Other than Full and Open Competition (JOFOC) for a noncompetitive
procurement to support the use of noncompetitive procedures.  Appropriate
officials certify the JOFOC for completeness and accuracy.  As part of its
oversight duties, the NASA Headquarters Office of Procurement conducts
survey reviews at NASA installations that address, in part, noncompetitive
procurements.
Objectives
The overall objective of our audit was to determine whether NASA awarded its
FY 1998 noncompetitive awards and made modifications in accordance with the
requirements of the Federal Acquisition Regulation (FAR) and the NASA FAR
Supplement.  Our specific objectives were to determine whether:
technical analyses were adequate and allowed the contracting
officer (CO) to negotiate a fair and reasonable price and
the pricing of noncompetitive purchase order awards was
reasonable.
Appendix A contains further details on the audit objectives, scope, and methodology.
Results in Brief
NASA's noncompetitive procurement actions at the Ames Research Center
(Ames), John H. Glenn Research Center (Glenn Research Center), Goddard Space
Flight Center (Goddard), and the Johnson Space Center (Johnson) were
adequately supported by JOFOC's.  The JOFOC's generally identified the
appropriate statutory authority and contained sufficient facts to support
other than full and open competition.  We commend the NASA Headquarters
Procurement Management Survey Report teams for their ongoing JOFOC reviews
during procurement surveys.  The Procurement Division at Glenn Research
Center also reviews JOFOC's annually.  We believe these oversight activities
have significantly improved the quality of the JOFOC's.
However, technical analyses for 17 of the 40 noncompetitive procurement
actions at 3 (Glenn Research Center, Goddard, and Johnson) of the 4 Centers
reviewed were inadequate.  Analyses performed at Ames were adequate.
Further, the CO at Johnson did not request technical assistance for a
modification made to the International Space Station (ISS) contract (see
Appendix C).  Therefore, the CO's ability to develop a sound and supportable
prenegotiation position and to obtain more favorable award prices may have
been weakened (see Finding A).  Of the remaining 21 analyses, 9 contained
findings by the analyst.  The CO's properly dispositioned the findings in
all nine cases.  We commend the CO's for their disposition efforts.
In addition, 38 of the 65 noncompetitive purchase order awards at 3
(Glenn Research Center, Goddard, and Johnson) of the 4 Centers reviewed did
not contain the documentation supporting determinations of price
reasonableness required by the FAR.  Therefore, NASA management and
procurement supervisory staffs lack assurance that the Agency paid a fair
and reasonable price for supplies and services (see Finding B).
Recommendations
The CO's and technical analysts should communicate more to improve the
quality and usefulness of technical analyses.  The CO should provide
regulations, guidance, and prior technical reports to analysts for reference
purposes.  Further, analysts should document all fact-finding meetings to
better support their conclusions.  Lastly, management should ensure that
CO's and purchasing agents receive refresher training on the documentation
required to adequately support pricing decisions on noncompetitive purchase
order awards.
Management's Response
Management concurred with all the recommendations.  NASA management will
reemphasize the importance of quality technical analyses.  NASA will also
provide training relative to technical analyses and the pricing of
noncompetitive purchase order awards.  The complete text of the response is
in Appendix D.  We consider management's comments responsive.